Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    DEFICIENCIES IN THE 

OVERSIGHT OF THE 340B DRUG 

     PRICING PROGRAM





                    Daniel R. Levinson

                    Inspector General 


                      October 2005

                     OEI-05-02-00072

                Office of Inspector General 

                                       http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud
and patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties
on health care providers and litigates those actions within HHS. OCIG also represents OIG in
the global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
Δ   E X E C U T I V E                         S U M M A R Y                          



                  OBJECTIVE
                  To assess the ability of the Health Resources and Services
                  Administration (HRSA) to ensure that entities participating in the 340B
                  Drug Pricing Program are able to purchase products at or below a
                  statutorily established ceiling price.


                  BACKGROUND
                  In 1992, Congress amended section 340B of the Public Health Service
                  Act (PHS Act), 42 U.S.C. 2566, to establish the 340B Drug Pricing
                  Program (340B Program). Pursuant to the PHS Act, manufacturers
                  agree to charge certain covered entities at or below a specified
                  maximum price for outpatient drug purchases, known as the 340B
                  ceiling price. Covered entities include public hospitals, AIDS Drug
                  Assistance Programs, and community health centers, which serve some
                  of the country’s most vulnerable populations. HRSA oversees the 340B
                  Program, managing the pricing arrangements among the 702
                  participating manufacturers and nearly 12,000 entities. Participating
                  entities spent an estimated $3.4 billion on outpatient drugs in calendar
                  year 2003.

                  The Government and pharmaceutical manufacturers separately
                  calculate a 340B ceiling price each quarter. The Government’s
                  calculation is intended to be used in program oversight, while the
                  manufacturers’ calculation is the price used in sales to participating
                  entities. The 340B price is based on required sales data that
                  manufacturers must report to the Government for the purposes of the
                  Medicaid Drug Rebate program. Manufacturers and the Government
                  use the same pricing data and formula to calculate 340B ceiling prices.
                  Due to provisions and policies protecting the manufacturers’ pricing
                  data, neither the Government’s nor the manufacturers’ ceiling prices
                  are disclosed to the covered entities.

                  In June 2004, the Office of Inspector General (OIG) issued a report
                  entitled “Appropriateness of 340B Drug Prices” (OEI-05-02-00070),
                  which evaluated whether participants in the 340B Program received the
                  prices to which they are entitled by law. During follow-up work on the
                  report, we uncovered a number of problems with the data used to
                  develop the report’s findings. Therefore, we withdrew this report on
                  October 21, 2004, and conducted a focused review of the Government’s
                  340B ceiling prices.

OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   i
    E X E C U T I V E                       S U       M M A R Y


                  For this review on the deficiencies in the oversight of the 340B Program,
                  we thoroughly analyzed the data previously collected for
                  “Appropriateness of 340B Drug Prices,” which included a sample of
                  entity invoices and the Centers for Medicare & Medicaid Services (CMS)
                  ceiling price calculations for the third quarter of 2002. We also
                  reviewed and further evaluated CMS’s reported analysis on the
                  completeness of 340B ceiling prices effective in the first quarter of 2005.
                  We interviewed both CMS and HRSA staff about the 340B ceiling price
                  calculation and oversight of the 340B Program.


                  FINDINGS
                  Due to systemic problems with the accuracy and reliability of the
                  Government’s record of 340B ceiling prices, HRSA is unable to
                  appropriately oversee the 340B Program. HRSA needs an accurate
                  record of 340B ceiling prices to verify that entities receive the discount
                  to which they are entitled by law. A review of CMS’s analysis of the
                  first quarter 2005 340B ceiling prices revealed significant problems with
                  the underlying data used in its calculation. In particular, the
                  Government’s record was missing 28 percent of the 340B ceiling prices.
                  Further, 8 percent of its prices did not include the 340B discount,
                  producing inaccurate ceiling prices. Finally, HRSA received a
                  substantial amount of information that was not relevant to the 340B
                  program, but upon which it inappropriately relied in conducting
                  analyses and performing its oversight role.

                  HRSA’s oversight of the program is further hindered by the lack of
                  detailed, written procedures for calculating 340B ceiling prices.
                  Consequently, the 340B ceiling prices calculated by CMS used
                  incomplete package size information, which yielded incorrect ceiling
                  prices. HRSA also has no procedure to convert ceiling prices with
                  negative values into practical ceiling prices.
                  HRSA lacks the oversight mechanisms and authority to ensure that
                  340B entities pay at or below the 340B ceiling price. Until September
                  2005, HRSA relied on CMS to calculate 340B ceiling prices and, while
                  HRSA anticipates calculating the price now, it has yet to establish a
                  system to perform the calculations itself. In line with this new
                  responsibility, HRSA does not systematically compare its record of 340B
                  ceiling prices to the ceiling prices calculated by pharmaceutical
                  manufacturers to identify any discrepancies. HRSA also does not



OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   ii
 E X E C U T I V E                        S U    M M A R Y 





                  perform program monitoring designed to ensure that 340B participants
                  receive the 340B ceiling price.

                  Confidentiality provisions related to disclosure of 340B ceiling prices
                  further hamper HRSA’s ability to effectively implement its prime
                  vendor program which, besides offering distribution services through a
                  network of wholesalers, is intended to negotiate subceiling discounts for
                  participating entities. Finally, HRSA does not have the authority to
                  enforce compliance with either the PHS Act or the Pharmaceutical
                  Pricing Agreement, which is the formal agreement between HRSA and
                  manufacturers participating in the 340B Program.
                  Participating entities cannot independently verify that they receive
                  the correct 340B discount due to confidentiality provisions. Entities
                  participating in the 340B Program do not have access to 340B ceiling
                  prices. Therefore, entities are unable to determine the prices to which
                  they are entitled under the 340B statute and whether they receive
                  them.


                  RECOMMENDATIONS
                  CMS and HRSA should work together to ensure accurate and timely
                  pricing data for the Government’s official record of 340B ceiling
                  prices. CMS and HRSA have already engaged in discussions about
                  calculating the 340B ceiling price. On September 19, 2005, CMS and
                  HRSA signed a new Intra-Agency Agreement, retroactively effective for
                  Fiscal Year 2005, which states that HRSA will continue to receive
                  pricing data from CMS, but will itself calculate the government’s 340B
                  ceiling price. We encourage HRSA and CMS to continue to work
                  together to improve the accuracy and timeliness of the pricing data
                  CMS has agreed to provide HRSA.
                  HRSA should establish detailed standards for its calculation of 340B
                  ceiling prices. To prevent the types of errors we discovered in CMS’s
                  calculation of the 340B ceiling price, we suggest that HRSA take action
                  to ensure the accuracy of its calculations. In particular, HRSA needs to
                  develop specific policies around correctly calculating the 340B ceiling
                  prices. HRSA’s standards should include specifics on the use of correct
                  package sizes and a conversion factor for negative ceiling prices.
                  HRSA should institute oversight mechanisms to validate its 340B
                  price calculations and the prices charged to participating entities.
                  We suggest these mechanisms include:


OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   iii
     E X E C U T I V E                       S U        M M A R Y 



                  • 	 Comparing the Government’s official 340B ceiling prices to the
                      manufacturers’ ceiling prices each quarter to detect discrepancies;

                  • 	 Spot-checking covered entity invoices against ceiling price data to
                      ensure that entities are charged at or below 340B ceiling prices; and

                  • 	 Selectively auditing manufacturers, wholesalers, and covered
                      entities to ensure the integrity of the discount program.
                  HRSA should seek authority to establish penalties for PHS Act
                  violations. HRSA should propose a legislative package that might
                  include a variety of sanctions, such as fines and civil monetary
                  penalties, for manufacturer or wholesaler violations of the 340B
                  Program requirements. We recommend that HRSA consider as a model
                  CMS’s statutory authority to enforce the Medicaid rebate program,
                  pursuant to § 1927(b)(3)(C)(i) of the Social Security Act, and seek
                  similar authorities with respect to enforcement of the 340B Program.
                  HRSA should provide participating entities with secure access to
                  certain pricing data to help approximate 340B ceiling prices. We
                  suggest that HRSA develop a price verification system by which entities
                  can submit prices to determine whether they comply with the 340B
                  discount requirements, while protecting the confidentiality of protected
                  data. We additionally suggest that HRSA reinstate the publication of its
                  340B prime vendor program’s selling prices on the agency Web site so
                  covered entities can validate the prices they are charged.


                  AGENCY COMMENTS
                  HRSA and CMS concur with most of our recommendations. The
                  complete text of the comments can be found in Appendix B.

                  Based on the issues raised and recommendations offered in our
                  withdrawn report, HRSA and CMS have already engaged in numerous
                  technical discussions about calculating the 340B ceiling price. As a
                  result of these discussions, HRSA will continue to receive pricing data
                  from CMS, but will itself calculate the Government’s 340B ceiling price.
                  To improve the quality and timeliness of the data sent to HRSA, CMS
                  has agreed to reiterate the 30-day pricing data submission requirement
                  for manufacturers and will consider referring appropriate cases of late
                  submission to OIG to levy penalties. HRSA commented that it will
                  work with CMS to maximize the acquisition of manufacturers’ data as
                  well as resolve problems related to missing data. HRSA also agreed to



OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   iv
         E X E C U T I V E                      S U        M M A R Y

                  publish detailed standards for the calculation of 340B ceiling prices to
                  its Web site.

                  In response to our recommended steps for instituting oversight to
                  improve the integrity of 340B ceiling prices, HRSA stated its intent to
                  review the data that manufacturers and entities voluntarily submit, to
                  the extent that resources permit. For more intensive audits of the 340B
                  Program, HRSA deferred to its reliance upon OIG audits and
                  evaluations.

                  HRSA does not support our recommendation to seek legislation to
                  establish penalties for violations of the PHS Act, preferring to first
                  acquire experience with its planned changes. Finally, HRSA does not
                  concur with our recommendation that it reinstate the publication of
                  HRSA’s 340B prime vendor program’s selling price on the agency Web
                  site.


                  OFFICE OF INSPECTOR GENERAL RESPONSE
                  We are encouraged that CMS and HRSA concur with most of our
                  recommendations and have already taken steps to improve the
                  calculation of the 340B ceiling price. We also support HRSA’s stated
                  intention to compare the manufacturers’ data currently received
                  voluntarily to the ceiling price and review the prices charged to entities;
                  however, we do not believe this represents an adequate approach to
                  oversight of the program. While this level of review might prove helpful
                  in some instances, it will only cover the number of limited
                  manufacturers and entities who choose to supply drug pricing data.

                  We are concerned about the limited nature of HRSA’s own plans for
                  oversight of the 340B Program. While OIG is committed to ensuring the
                  integrity of the HHS programs, we believe that routine oversight is an
                  agency’s responsibility. Therefore, we maintain that HRSA itself needs
                  to develop a comprehensive auditing program.

                  We also do not agree with HRSA that it is best to wait to seek authority
                  to establish penalties for violations of the PHS Act. Rather, we believe
                  that the ability to impose fines and civil penalties is essential in
                  ensuring that entities receive the full 340B discount.




OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   v
Δ   T A B L E            O F             C O N T E N T S                                     




         EXECUTIVE SUMMARY ........................................                                                                       i



         INTRODUCTION ................................................ 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                     Systemic data problems hinder HRSA oversight. . . . . . . . . . . . . . 10 


                     HRSA lacks oversight mechanisms and authority . . . . . . . . . . . . 15 


                     Entities cannot verify prices themselves . . . . . . . . . . . . . . . . . . . . 18 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 



         O F F I C E O F I N S P E C T O R G E N E R A L R E S P O N S E . . . . . . . . . . . 24 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 



         APPENDIXES                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

                     A: Programs Eligible to Participate in 340B . . . . . . . . . . . . . . . . . . . 28 


                     B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Δ   I N T R O D U C T I O N                                     



                  OBJECTIVE
                  To assess the ability of the Health Resources and Services
                  Administration (HRSA) to ensure that entities participating in the
                  340B Drug Pricing Program are able to purchase products at or below a
                  statutorily established ceiling price.


                  BACKGROUND
                  In June 2004 the Office of Inspector General (OIG) issued a report
                  entitled “Appropriateness of 340B Drug Prices” (OEI-05-02-00070),
                  which evaluated whether participants in HRSA’s 340B Drug Pricing
                  Program (340B Program) were able to purchase their products at or
                  below established ceiling prices as specified in the Public Health Service
                  Act (PHS Act). Because the formula for 340B ceiling prices contains
                  protected manufacturer pricing information, the entities cannot access
                  the ceiling price to verify the accuracy of their charges, nor can HRSA
                  precisely identify potential overcharges. Therefore, we analyzed
                  whether 340B entities were being charged at or below the ceiling prices.

                  For the June 2004 report, we applied quality assurance standards to
                  ensure the sufficiency, competency, and relevancy of the Government’s
                  record of the 340B ceiling price data per Government Auditing
                  Standards.1 Following our integrity checks, we presumed the
                  Government’s 340B ceiling price data to be reliable.

                  After the publication of the report, however, we discovered a number of
                  problems with the underlying data used to support the first of the
                  report’s four findings. A comparison of the Government’s ceiling prices
                  to industry pricing data, along with interviews with CMS staff, led us to
                  conclude that CMS provided us with 340B ceiling prices for the wrong
                  timeframe. Based on our data concerns, we withdrew the report on
                  October 21, 2004.

                  After receiving the data for the correct timeframe, our review revealed
                  other, more subtle, embedded issues that caused us to further question
                  the validity of the data. Thus, we determined that we would not use
                  that data to report whether 340B entities receive drugs at or below the
                  statutory discount. The report that follows describes the various data
                  problems that need to be addressed prior to drawing such conclusions.

                  This report restates the findings related to HRSA’s limited oversight as
                  previously noted in “Appropriateness of 340B Drug Prices” and


OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   1
I N T R O D        U C T      I O N


                    introduces new concerns regarding the data used to provide appropriate
                    oversight. Once we are assured that the data issues have been resolved,
                    we intend to begin work on a new study to examine if and to what
                    extent entities pay at or below 340B ceiling prices.
                    The 340B Drug Discount Program
                    In 1992, Congress amended section 340B of the PHS Act, “Limitations
                    on Prices of Drugs Purchased by Covered Entities,” to create the 340B
                    Program. Under the 340B Pharmaceutical Pricing Agreement (the
                    agreement), a manufacturer agrees to sell covered drugs at or below
                    a specified ceiling price to certain PHS and Government-supported
                    facilities, called covered entities, which serve some of the country’s most
                    vulnerable patient populations. These entities include community
                    health centers, Ryan White grantees, and disproportionate share
                    hospitals, among others (for a complete list, see Appendix A). Through
                    the 340B Program, outpatient prescription drug costs are reduced by an
                    estimated 20 to 50 percent.2 Participating entities spent an estimated
                    $3.4 billion on outpatient drugs in calendar year 2003.3 HRSA is
                    responsible for interpreting, implementing, and overseeing compliance
                    with section 340B on behalf of the estimated 12,000 participating
                    entities.

                    HRSA also maintains the electronic database of participating covered
                    entities. Entities must notify HRSA of their intention to participate by
                    completing and submitting appropriate registration forms. Upon
                    receipt, HRSA adds the entity to the participating database and the
                    entity is eligible to receive pharmaceuticals at the 340B discounted
                    price beginning the next calendar quarter. Manufacturers rely on this
                    list to verify an entity’s eligibility for the 340B discount and use the
                    contact information for shipping and billing purposes.

                    Section 340B(a)(8) of the PHS Act requires the Government to establish
                    a prime vendor program to facilitate the delivery of covered outpatient
                    drugs. HRSA’s prime vendor serves its participants in three primary
                    roles: negotiating prices below the 340B ceiling prices, establishing
                    distribution solutions and networks that improve access to affordable
                    medications, and providing other services designed to simplify
                    participation in the 340B Program. Participation in the prime vendor
                    program is voluntary.
                    Calculation of 340B Ceiling Prices
                    The drug discount that manufacturers must provide to participating
                    entities is calculated according to a formula tied to the calculation of the

 OEI-05-02-00072    DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   2
    I N T R O D         U C T             I O N 





                  Medicaid drug rebate amount and to manufacturers’ figures for a drug’s
                  average manufacturer price (AMP) and its best price offered during a
                  quarter. Specifically, the 340B discount is equal to the AMP reduced by
                  Medicaid’s unit rebate amount (URA), which CMS calculates based on a
                  formula stipulated in the Omnibus Budget Reconciliation Act of 1990
                  (OBRA ’90).4
                  Pursuant to the PHS Act, inputs to the 340B discount formula are based
                  on the smallest dispensable unit of each drug, such as a tablet, capsule,
                  or milliliter. Therefore, taken literally, the discount yields a price that
                  applies to each unit of the product that the entity purchases—for
                  example, $1 per pill. Though it is not explicitly stated in law, the
                  per-unit result of the ceiling price calculation must be multiplied by the
                  drug package size to practically apply the discount to the way in which
                  entities, such as hospitals, purchase products—for example, a bottle of
                  100 tablets versus an individual tablet.

                  Manufacturers report the product package size when applying for a
                  National Drug Code (NDC) from the Food and Drug Administration
                  (FDA). The NDC is a three-segment universal product identifier for
                  drugs. FDA assigns the first segment of the code, which identifies the
                  manufacturer. Manufacturers determine the second and third
                  segments—the product code and package size code—and report this
                  information to the FDA. Manufacturers report this same information to
                  third-party contracted providers of prescription drug information, such
                  as First Databank and Medispan, which sell the information to States,
                  insurance companies, and CMS.

                  Pharmaceutical manufacturers and the Government each calculate
                  340B ceiling prices each quarter. Pharmaceutical manufacturers’
                  calculated 340B ceiling prices are used in sales to covered entities.
                  Manufacturers are not required to share their 340B ceiling prices with
                  the Government. However, manufacturers are required to submit sales
                  data to CMS for the Medicaid drug rebate program. In the past, CMS
                  used this manufacturer-reported data to calculate the Government’s
                  official 340B ceiling prices on behalf of HRSA. On September 19, 2005,
                  HRSA and CMS agreed that HRSA would be responsible for calculating
                  340B ceiling prices.

                  HRSA needs official Government 340B ceiling prices to “verify that the
                  selling price to covered entities does not exceed the statutory ceiling
                  price and for research, analysis, audit and dispute resolution
                  purposes.”5 HRSA receives information on 340B selling prices from

OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   3
I N T R O D        U C T      I O N


                    manufacturers that elect to send their 340B prices to HRSA and from
                    covered entities that have questions or concerns on the accuracy of the
                    prices they pay.
                    Manufacturers’ calculation of 340B ceiling prices. Under the PHS Act,
                    manufacturers agree to charge covered entities at or below a maximum
                    price calculated using specific sales and pricing data defined under the
                    Social Security Act (the SSA Act) and used to calculate the Medicaid
                    Drug Rebate amount. Section 340B(10) states that nothing shall
                    prohibit a manufacturer from charging a price for a drug that is lower
                    than the maximum price calculated using the specified formula.

                    Manufacturers are responsible for ensuring that the 340B discount is
                    passed on to the covered entity, regardless of whether the entity
                    purchases drugs from a wholesaler or directly from the manufacturer.6
                    HRSA staff stated that it is acceptable for wholesalers to charge covered
                    entities 340B ceiling prices plus a distribution fee, which varies based
                    on standard business practice. If a manufacturer fails to sell covered
                    drugs at or below the ceiling price, it may be required to reimburse for
                    discounts withheld and can be terminated from both the 340B and
                    Medicaid Drug Rebate programs.
                    Government’s official calculation of 340B ceiling prices. HRSA and CMS
                    negotiated a new Intra-Agency Agreement and Data Use Agreement on
                    September 19, 2005. Under the Agreement, HRSA will receive pricing
                    data from CMS effective during Fiscal Year (FY) 2005, but will itself
                    calculate the Government’s 340B ceiling price. Prior to this agreement
                    and covering the period of this report, CMS calculated the 340B ceiling
                    prices on behalf of HRSA each quarter. Although CMS and HRSA have
                    yet to negotiate an Agreement for FY 2006, OIG understands that
                    HRSA will continue to be responsible for calculating 340B ceiling price.

                    Pursuant to the Intra-Agency Agreement, CMS provides HRSA with an
                    electronic file containing the pricing data components needed to
                    calculate 340B ceiling prices. These elements include the
                    manufacturer’s reported AMP and CMS’s calculation of the URA for
                    each NDC, which CMS sends HRSA approximately 45 days after a
                    quarter’s end. HRSA stated that it intends to use package size data
                    from First Databank, a contractor that provides prescription drug
                    information reported by manufacturers.

                    Chart 1 illustrates the two ways in which CMS and pharmaceutical
                    manufacturers calculate 340B ceiling prices.


 OEI-05-02-00072    DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   4
   I N T R O D            U C T          I O N


CHART 1:        340B PRICING DATA AND PURCHASE FLOW


Government record of 340B ceiling prices                                                   Manufacturers’ calculation
                                                                                           and dissemination of 340B
                                                                                           ceiling prices



                                    Manufacturers                  Pharmaceutical
                                    send package                   Manufacturers
First Data Bank                     size information
     (FDB)
                                                                                                 Manufacturers send
                                                                                                 340B ceiling price to
 FDB supplies HRSA with                               Manufacturers                              wholesalers
 package size data                                    send pricing
                                                      data to CMS




                        CMS                                                                          Wholesalers


         CMS will send HRSA                                                                           Wholesalers sell drugs
         manufacturers’ price                                                                         at 340B ceiling price +
         data needed to                                                                               distribution fee to
         calculate ceiling prices                                                                     entities




                                                                 As of 10/01/05,                          340B
                                    HRSA                         HRSA calculates
                                                                 340B ceiling prices                      Entities




                            Confidentiality of Ceiling Price Information
                            OBRA ’90 stipulates that information disclosed by manufacturers,
                            including AMP and Best Price “. . . shall not be disclosed by the
                            Secretary . . . in a form which discloses the identity of the manufacturer,
                            or the prices charged by the manufacturer, except as necessary to carry
                            out the provisions of the Act.”7 Because of this provision, the 340B
                            covered entities are not given access to the AMP, Best Price, or the
                            calculated ceiling price. However, language in the Pharmaceutical
                            Pricing Agreement states that the confidentiality protections only
                            extend to the 340B ceiling price, not to the 340B selling price, to which

      OEI-05-02-00072       DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM                         5
I N T R O D       U C T          I O N


                  entities have access through their wholesaler price lists. The
                  Pharmaceutical Pricing Agreement states:

                         Section 340B requires the manufacturers to charge a price for
                         covered outpatient drugs that will not exceed the amount
                         determined under a statutory formula. This charged price, termed
                         the 340B “Selling Price,” is provided to wholesalers and covered
                         entities by manufacturers and is available in the marketplace for
                         the buying and selling of drugs by covered entities and is
                         considered separate from the ceiling price as generated by the
                         MDRI [CMS’s Medicaid Drug Rebate Initiative] data elements.8
                  Related OIG Work
                  In June 2004, OIG also issued “Deficiencies in the 340B Drug Discount
                  Program’s Database” (OEI-05-02-00071), which reviewed the quality
                  and timeliness of HRSA’s database containing information on 340B
                  entity enrollment. The PHS Act requires HRSA to maintain an
                  electronic listing of all the entities enrolled in the 340B Program.
                  Pharmaceutical manufacturers refer to the listing to verify entities’
                  eligibility for the ceiling price and to ensure that their drugs are
                  shipped to legitimate sites.

                  We found the enrollment database to be a poor source of information on
                  participating 340B entities. Thirty-eight percent of our sampled entities
                  were listed as enrolled, but do not actually participate in the 340B
                  Program. The database had incorrect addresses for 43 percent of
                  sampled entities and did not provide essential information on the
                  entities’ billing and shipping arrangements. According to interviews
                  with nine major pharmaceutical corporations, the extent of incorrect
                  addresses listed in the database hinders their ability to effectively
                  identify entities eligible for the discount program.

                  We recommended that HRSA develop a strategic plan for improved
                  management of the 340B database and HRSA is currently taking steps
                  to address this recommendation.


                  METHODOLOGY
                  The findings in this report rely on data from two points in time. First,
                  we used ceiling prices from the quarter effective during September
                  2002, which includes July, August, and September. These are the data
                  originally collected for the now-withdrawn “Appropriateness of 340B
                  Drug Prices.” Second, to provide further information on the accuracy of
                  the Government’s 340B ceiling prices, we examined an analysis

OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   6
   I N T R O D         U C T          I O N


                  conducted by CMS on pricing data used to calculate the 340B ceiling
                  prices effective during the first quarter (January to March) of calendar
                  year 2005.
                  Government’s Official Record of the 340B ceiling price
                  CMS 2002 ceiling prices. For “Appropriateness of 340B Drug Prices,” we
                  requested CMS’s confidential data used to calculate 340B ceiling prices
                  for the quarter effective during September 2002, which includes July,
                  August, and September. We requested invoices from a sample of
                  participating entities for purchases made during the same month.

                  Upon receipt of the data, we applied quality assurance standards to
                  ensure the sufficiency, competency, and relevancy of the Government’s
                  record of the 340B ceiling price data per Government Auditing
                  Standards. Following our integrity checks, we presumed the
                  Government’s 340B ceiling price data to be reliable.

                  Following the publication of the report, however, we discovered a
                  number of problems with the underlying data used to support the first
                  of the report’s four findings. A comparison of the Government’s ceiling
                  prices to industry pricing data, along with followup with CMS staff, led
                  us to conclude that CMS had provided us with 340B ceiling prices for
                  the wrong timeframe. Therefore, we requested that CMS extract the
                  ceiling prices for the appropriate timeframe and received the correct
                  data in November 2004.

                  Our analysis of the ceiling price data for the correct timeframe revealed
                  serious data issues that caused us to further question the validity of the
                  data. During our followup on “Appropriateness of 340B Drug Prices,”
                  we discovered issues with the Government’s package size data.
                  Therefore, we reassessed the package size data CMS used in the
                  calculation of the 340B ceiling price.

                  To compile an accurate and verified list of package sizes, we compared
                  the package size information listed in CMS’s 2002 third-quarter ceiling
                  prices against the package size information maintained by First
                  Databank. CMS reported that it relied on First Databank for the 340B
                  package size information. For those drug products for which there was
                  a discrepancy between CMS and First Databank’s information, we
                  replaced CMS’s package size with First Databank’s package size. For
                  the 10 drug products for which First Databank did not have
                  information, we compared CMS’s package size data to data maintained
                  by FDA and replaced CMS’s package size where applicable.


OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   7
 I N T R O D        U C T           I O N


                  We also analyzed the 2002 data in great detail to uncover other, less-
                  obvious data issues.
                  CMS 2005 ceiling prices. In addition to our analysis of the 2002 340B
                  ceiling price data, we also examined an analysis that CMS conducted on
                  ceiling prices effective for the first quarter of calendar year 2005. CMS
                  conducted this analysis to assess the completeness of the data and to
                  identify causes for missing data or instances in which ceiling prices
                  were equal to zero. This initial analysis provided descriptive statistics
                  on which data elements were missing—for example, AMP, Best Price,
                  and package size—which could then result in missing 340B ceiling
                  prices. Given that CMS staff had the ability to analyze data used for
                  the Medicaid program more thoroughly than we could for the purposes
                  of this report, we felt it was important to include the findings of their
                  analysis. Additionally, the analysis CMS conducted covers 2005—much
                  more recent than our 2002 analysis—showing that the concerns with
                  the 340B data persist.

                  We verified the accuracy and reliability of the analysis conducted by
                  CMS by duplicating the analysis where possible and by meeting with
                  CMS analysts to review the methods used in the analysis.

                  We also used the data CMS provided to create two categories from
                  which to assess the data: those NDCs that should have ceiling prices
                  and those NDCs that should not have ceiling prices. This approach
                  differs from CMS’s analysis of the data, which evaluates the overall
                  completeness of the categories combined. Because we felt inclusion of
                  NDCs that should not have ceiling prices would skew the results of our
                  analysis, we did not include them in our overall estimations.
                  Consequently, our results and basis for findings differ from what CMS
                  originally reported.
                  Interviews and Document Review
                  To assess the adequacy of 340B Program oversight, we reviewed
                  relevant statutes, the Pharmaceutical Pricing Agreement, and HRSA
                  program memoranda. We also interviewed officials from CMS and
                  HRSA. We requested documentation of the Government’s process for
                  calculating the 340B ceiling price, but neither CMS nor HRSA could
                  provide such information.
                  Limitations
                  We did not review CMS’s oversight of manufacturer-reported prices
                  required by OBRA ’90. We did not audit the accuracy of manufacturers’
                  reported prices. We relied on CMS’s analysis of 340B ceiling prices for

OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   8
I N T R O D        U C T      I O N


                    the first quarter of 2005, verifying and testing its conclusions where
                    possible. Lastly, we did not assess whether price discrepancies or
                    overcharges are occurring.

                    Our results describe challenges related to the Government’s ceiling
                    prices as calculated by CMS. With the 2005 Intra-Agency Agreement,
                    HRSA, rather than CMS, will be calculating the 340B prices.

                    Despite this change, HRSA will rely on the same pricing data and will
                    continue to face the same challenges CMS faced in ensuring that the
                    340B ceiling prices are accurate.
                    Standards
                    We conducted our review in accordance with the Quality Standards for
                    Inspections issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-05-02-00072    DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   9
        Δ         F I N D I N G S 




 Due to systemic problems with the accuracy and               As the administrator of the 340B
reliability of the Government’s record of the 340B            Program, HRSA’s responsibilities
                                                              extend to overseeing the validity
     ceiling price, HRSA is unable to appropriately
                                                              of the ceiling price data used to
                        oversee the 340B Program
                                                              monitor the program. HRSA
                                                              needs the quarterly 340B ceiling
                      price to verify that the 340B covered entities receive the discount to
                      which they are entitled by law. Based on reviews of the data collected,
                      we found the 340B ceiling prices HRSA received from CMS to be so
                      problematic that they are of little use to the agency’s oversight of the
                      340B Program.
                      The official 340B price record was missing 28 percent of the ceiling prices
                      The 340B ceiling price file for the first quarter of 2005 was missing 28
                      percent of the prices needed for appropriate program oversight. For 49
                      percent of these missing ceiling prices, the file did not contain the AMP.
                      For 29 percent, the products were missing package size data. For the
                      remaining 21 percent, the products had neither the AMP nor the
                      package size.9
                      Missing AMP data are most likely the result of manufacturers not
                      reporting or delaying submission of AMP data to CMS. Manufacturers
                      are required to report their drugs’ AMP and the single best price within
                      30 days after a quarter’s end so that CMS can calculate the drug’s URA.
                      If the data are late, the Secretary may impose a civil monetary penalty
                      for failure to provide timely information on AMP or the best price.10
                      Instead of seeking penalties, CMS staff typically notify the
                      manufacturers of the missing data and request prompt submission.
                      Manufacturers typically include previously missing data with their next
                      quarter’s submission.

                      While late submission of pricing data may delay, rather than prevent,
                      State Medicaid agencies’ rebate collections, it has a more immediate
                      impact on the 340B Program because HRSA will be unable to calculate
                      ceiling prices at the time they are needed for the 340B Program.
                      Further, although CMS will supply HRSA with a separate file of
                      previously missing pricing data along with the quarterly updates, HRSA
                      does not have a policy in place to use the file to update the official
                      ceiling prices. Therefore, any missing ceiling prices will remain
                      missing.




    OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   10
F   I N D I N G       S


                  Eight percent of the Government’s 340B ceiling prices were inaccurate
                  because the calculation did not include the 340B discount
                  To correctly calculate a 340B ceiling price, HRSA will need the drug’s
                  AMP, URA, and package size. Based on our analysis of the 37,067
                  official CMS-calculated 340B ceiling prices for the first quarter of 2005,
                  8 percent were inaccurate because the price did not include the URA.
                  The URAs were not included because CMS’s validity test for a
                  manufacturer’s AMP submission, known as the “50/50” edit,11 rejected
                  the AMP. Without an AMP, CMS does not calculate a URA, so the
                  ceiling price submitted to HRSA was equal to AMP-0. Thus, HRSA
                  received ceiling prices that appeared to be complete, but did not include
                  the 340B discount.

                  For 90 percent of the records with no URA, package size information is
                  available. However, the 340B ceiling price was overstated because the
                  ceiling price is equal to (AMP-0) multiplied by the package size, which
                  did not include the discount.

                  For the remaining 10 percent of the records, HRSA’s file was missing
                  both the URA and package size. Again, HRSA received data that
                  appeared complete, but in reality were incorrect and dramatically
                  understated the real ceiling price. This is because the ceiling price was
                  the equivalent of the unit (AMP-0) multiplied by a blank field (a result
                  of no package size data), therefore generating a price that did not
                  represent the price for the full product purchased and which did not
                  include the discount.

                  According to CMS staff, when CMS received a manufacturer’s corrected
                  pricing information at a later date in response to its 50/50 request, the
                  revised AMPs and URAs were sent to HRSA in a separate file; however,
                  HRSA did not have a policy to make adjustments to the official ceiling
                  prices, so the prices remain inaccurate.
                  The Government’s record of 340B ceiling prices included a substantial
                  amount of information that is unnecessary to the discount program and
                  upon which HRSA inappropriately relied on in its oversight role
                  According to CMS’s analysis, the Government’s official record of the
                  340B ceiling prices included information about 95,928 NDCs, which is
                  nearly 50,000 more than the number of active NDCs listed in CMS’s
                  Medicaid Drug Rebate database for the same timeframe. Thus, 46
                  percent of the records that HRSA had received from CMS were
                  irrelevant to the 340B Program. To further complicate this matter,



OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   11
F   I N D I N G      S



                  HRSA inappropriately relied on some of this irrelevant information in
                  its limited program oversight efforts.

                  Based on CMS’s analysis, the 340B ceiling price file generated each
                  quarter included all products with a termination date after November
                  30, 1993; products with future market dates; and terminated
                  manufacturers. CMS staff were unable to explain why the file
                  contained this extraneous information. They stated that that was how
                  the file was set up in the early 1990s. HRSA also could not explain why
                  the information was included and had no documentation as to why it is
                  included. Neither CMS nor HRSA was aware of the unnecessary
                  information because neither agency had reviewed or questioned the
                  data or the resulting 340B ceiling price since the program was
                  established.

                  None of the information pertaining to terminated manufacturers or
                  terminated products should be used for 340B ceiling price purposes.
                  However, in November 2004, HRSA reported the results of its analysis
                  on the completeness of CMS’s ceiling price file and included these
                  expired NDCs in the universe. Because HRSA’s universe was
                  overstated, it concluded that 60 percent of the ceiling price data were
                  missing and requested a response from CMS. When the irrelevant data
                  are excluded, however, the actual error rate is 28 percent.
                  The lack of established technical procedures for calculating the
                  Government’s record of 340B ceiling prices resulted in unreliable data
                  According to CMS and HRSA staff, no established written procedures
                  exist for calculating the 340B ceiling price. Neither CMS nor HRSA has
                  a 340B ceiling price operations guide or manual that explicitly states
                  policies for calculating the ceiling prices. The staff at both agencies do
                  not know who set up the initial Intra-Agency Agreement or how the
                  calculation was originally determined. Instead, as CMS staff explained,
                  the policies for calculating the ceiling prices have been orally passed
                  down since the early 1990s. CMS officials have never questioned the
                  policies for calculating the ceiling price because HRSA never raised any
                  issues with the outcomes.

                  A general lack of detailed procedures for calculating the 340B ceiling
                  price results in unreliable data with which to oversee the 340B Program
                  and could lead to inappropriate enforcement actions. For example, if
                  HRSA had conducted a review of the appropriateness of entities’ prices
                  using the data CMS generated, the improper 340B ceiling prices would
                  have produced faulty results and potentially misleading information.

OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   12
F   I N D I N G      S

                  Due to the absence of established procedures, the 340B ceiling price was
                  calculated using incorrect package size information. CMS was using
                  incomplete information on a product’s package size, thereby calculating
                  and supplying HRSA with incorrect 340B ceiling prices. Based on our
                  analysis of the ceiling prices from 2002, we estimate that incorrect
                  package size data significantly affected 6 percent of the 3,000 prices we
                  reviewed. HRSA had never examined the completeness of package size
                  information or specified to CMS the type or source for package size data
                  needed to calculate 340B ceiling prices.

                  To correctly compute 340B ceiling prices, it is necessary to multiply the
                  Medicaid unit price by the product’s total package size. To define a
                  product’s package size, it is necessary to multiply the number of units in
                  a bottle or vial by the number of bottles or vials that are packaged and
                  sold together. This is typically expressed in a “unit X amount” notation.
                  For example, 100 pills sold in a bottle would have a total package size of
                  100 X 1=100.

                  In our analysis of package size data, we found that the ceiling prices
                  calculated by CMS included only units in calculating the 340B ceiling
                  price, rather than correctly multiplying units X amount to determine
                  the total package size. When CMS used the package size information
                  from First Databank, it only captured the field containing units, not the
                  second field listing the amount.

                  Package size problems are rarely found in drug products delivered as
                  pills. For these products, it is easy to identify the unit as a pill and the
                  amount as the bottle that contains them. Using the example from
                  above, 100 pills sold in a bottle would have a total package size of
                  100 X 1. In these cases, since the amount, or multiplier, is one, the
                  information on units previously captured by CMS and the total package
                  size necessary to correctly calculate the 340B ceiling price are the same.

                  However, for products measured by liquid volume or weight, such as
                  inhalers, ointments, or products sold in vials, incomplete package size
                  information does present a problem. In these cases, it can be difficult to
                  determine what constitutes a unit and what constitutes the amount. In
                  many of these cases, the manufacturer specifies the amount as a
                  number greater than one.

                  For example, the manufacturer may report the total package size for a
                  liquid prescription drug as “3 mL X 5,” equal to 3 milliliters of product
                  in each of 5 vials. In this case, it is necessary to multiply the unit X
                  amount, or the number of milliliters (3) by the number of vials (5),

OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   13
F   I N D I N G 
S



                      which results in a total package size of 15. Using only the units, the
                      calculated 340B ceiling price would underestimate the actual 340B
                      ceiling price by a factor of 5.

                      As this example illustrates, the miscalculation of the ceiling price due to
                      incomplete package size information may significantly understate the
                      price. In our review of CMS’s listed package sizes, we discovered cases
                      in which the ceiling price was 50 percent lower than the actual ceiling
                      price calculated using the correct package size.

                      Our review of FDA and First Databank package size data, which are
                      both reported by manufacturers, yielded marked discrepancies that
                      raise questions about potential problems with the general consistency
                      and reliability of manufacturers’ package size reporting. Manufacturers
                      are not held to any specific standards when reporting the package size,
                      so determining the correct amount for the purposes of calculating the
                      340B ceiling price is complicated and affects the entire pharmaceutical
                      industry.
                      HRSA has no procedure for converting negative ceiling price values received
                      from CMS into practical ceiling prices. HRSA does not have an official
                      policy regarding how to convert negative prices to reflect positive, and
                      therefore practical, ceiling prices. HRSA has never communicated with
                      CMS about the incidence of negative ceiling prices, nor did it perform
                      the necessary conversions for its record of 340B ceiling prices. Our
                      review of CMS’s 3rd quarter 2002 data found 117 products with negative
                      prices.

                      Because the 340B ceiling price formula is essentially AMP minus URA,
                      negative ceiling prices occur when the discount, the drug’s URA, is
                      greater than the base price, the AMP. This situation creates a negative
                      price that is meaningless in the marketplace. HRSA recommends to
                      manufacturers that if the ceiling price calculation yields a negative
                      number, it expects the manufacturer to charge the entity a penny.
                      However, HRSA has not provided official guidance on this issue or
                      updated its records to reflect this expectation.

                      If HRSA uses data containing negative ceiling prices to determine if
                      entities paid at or below 340B ceiling prices, the results will be skewed.
                      Mathematically, subtracting a negative number is the same as adding a
                      positive; therefore, the presence of negative figures in the Government’s
                      official record would seriously distort any assessment of price
                      discrepancies. For example, if the covered entity actually paid $0.01 for
                      a product, but HRSA’s uncorrected data had a ceiling price of -$2.50, the

    OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   14
    F   I N D I N G       S

                    subtraction of $0.01 minus (-$2.50) would result in a positive $2.51
                    overcharge. In reality the manufacturer may have charged the entity a
                    penny, which is the amount it should have charged per HRSA’s
                    recommendation; however, the comparison of these two prices would
                    show an overcharge. These false positives might cause HRSA to draw
                    invalid conclusions about compliance with the discount requirements.

   HRSA lacks the oversight mechanisms and                 Even if HRSA’s record of the
                                                           ceiling price were completely and
authority to ensure that 340B entities pay at or
                                                           accurately calculated, HRSA does
                  below the 340B ceiling price
                                                           not use the information to oversee
                                                           the 340B Program because it lacks
                    the necessary mechanisms and authorities. HRSA has no process for
                    ensuring that participating entities receive the price to which they are
                    entitled. HRSA also does not have the statutory authority to enforce
                    compliance with the PHS Act or the the Pharmaceutical Pricing
                    Agreement, or to effectively implement its prime vendor program.

                    While manufacturers have a vested interest in complying with the
                    terms of the PHS Act and the Pharmaceutical Pricing Agreement,
                    HRSA has not pursued increased authority or developed a plan
                    designed to ensure the integrity of the 340B Program.
                    HRSA has no system for ensuring that entities participating in the 340B
                    Drug Discount Program receive the statutory discount
                    According to interviews with HRSA officials, the agency has no reliable
                    way to document that entities purchasing drugs under the 340B
                    discount are actually receiving the discount to which they are entitled.12
                    Because confidentiality provisions of OBRA ’90 prevent the disclosure of
                    340B pricing data to the entities, HRSA has the primary responsibility
                    of ensuring that the program’s participants do not pay more than the
                    340B ceiling price. However, we found that HRSA does not conduct
                    audits or spot checks of entities’ or manufacturers’ prices, citing
                    insufficient authority.
                    HRSA does not compare the 340B ceiling prices calculated by CMS to
                    pharmaceutical manufacturers’ 340B ceiling prices
                    HRSA does not verify the official Government 340B ceiling prices
                    against manufacturers’ 340B ceiling prices to detect discrepancies.
                    Manufacturers must calculate their ceiling prices to participate in the
                    340B Program, but they are not required to report their final ceiling
                    prices to HRSA. However, manufacturers sign the Pharmaceutical
                    Pricing Agreement, which states they must charge entities at or below

  OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   15
        F   I N D I N G          S


                  the ceiling price and can face consequences for violating the terms of the
                  agreement. Theoretically, the Government and the manufacturers
                  should calculate the same ceiling price because they use the same
                  numbers. However, HRSA does not check and thus is unable to detect
                  whether manufacturers perform the calculation properly and whether
                  entities are paying at the correct ceiling price.
                  HRSA has no statutory authority to enforce compliance with the PHS Act or
                  the Pharmaceutical Pricing Agreement, or to effectively implement its prime
                  vendor program
                  HRSA does not have the necessary legislative, regulatory, or contractual
                  authority to effectively oversee the 340B Program. Unlike the Medicaid
                  Rebate Program statute, the PHS Act does not impose civil penalties for
                  noncompliance with the 340B Program requirements. Instead, the PHS
                  Act, in accordance with its predecessor, the SSA Act, states that
                  manufacturers must comply with the terms of the 340B Program or be
                  terminated from participation in the Medicaid and 340B Programs.13
                  Currently, HRSA has guidance on a voluntary process for resolving
                  disputes between manufacturers and entities,14 but, according to
                  interviews with HRSA staff, pharamaceutical manufacturers, entities,
                  and other industry experts, no one has engaged in the dispute
                  resolution process.

                  HRSA’s only statutory authority to enforce 340B Program requirements
                  may be too extreme to actually use; in addition, other authorities
                  mentioned in program guidance are ambiguous. According to 340B
                  Program guidelines, if HRSA determines that a manufacturer has
                  violated the provisions of section 340B of the PHS Act, the
                  manufacturer’s Pharmaceutical Pricing Agreement could be terminated
                  or “other actions taken, as deemed appropriate.”15 However,
                  terminating a manufacturer’s participation is an extremely severe
                  sanction, given the effect terminating a manufacturer would have on
                  access to medications for the millions of Medicaid and 340B
                  beneficiaries. Further, it is unclear what “other actions” HRSA can
                  take.

                  Because HRSA’s informal dispute resolution process is voluntary,
                  covered entities or manufacturers are not required to participate. If a
                  covered entity believes that a manufacturer is charging a price for a
                  covered drug that exceeds the ceiling price, it can submit a written
                  request for a review of the dispute, but this does not guarantee the
                  resolution of such dispute. If the manufacturer does not cooperate with


OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   16
     F   I N D I N G        S

                  the resolution process because there is no requirement to do so, HRSA
                  cannot enforce the consequences for violations as stated in HRSA’s
                  Pharmaceutical Pricing Agreement.
                  Pursuant to this Agreement, if a manufacturer is noncompliant, the
                  HHS Secretary “may require the manufacturer to reimburse the entity
                  for discounts withheld.”16 However, the directive to reimburse
                  overcharges is only found in the agreement, which does not have the
                  same force as a contract and is not reinforced by the PHS Act.

                  Even when HRSA attempts action against violators of the 340B
                  Program, its lack of legal authority makes it challenging to enforce its
                  guidelines. For example, in 2003, OIG issued a report citing five
                  manufacturers with charging 340B providers $6.1 million more than
                  they should have under the law.17 In September 2004, HRSA issued
                  letters to each of the drug companies identified in the audit requesting
                  that they develop action plans that include refunding covered entities
                  for overcharges. According to HRSA, the companies have responded to
                  the letters, but refunds have yet to be recovered.
                  To further illustrate the ineffectiveness of HRSA’s current authorities, in
                  2001, HRSA itself discovered overcharges based on entities’ invoices, but
                  did not pursue the issue further, citing insufficient authority. The Public
                  Hospital Pharmacy Coalition, an organization that represents the
                  interests of public hospitals participating in the 340B Program,
                  submitted six hospitals’ sales data to HRSA for price verification.
                  HRSA analysts found that 37 of the 50 drug prices exceeded the ceiling
                  price, but could not provide specific information on the extent of the
                  overcharges. Instead, HRSA informed the coalition that the differences
                  ranged from 10 to 100 percent over the 340B ceiling price. Despite the
                  evidence, HRSA did not initiate the dispute resolution process or take
                  other action to resolve this issue.

                  Insufficient legal authority also hampers HRSA’s ability to effectively
                  implement its prime vendor program. Section 340B(8) of the PHS Act
                  requires HRSA to establish a prime vendor program that negotiates
                  discounts below the ceiling price based on the buying power of the
                  participating entities. However, HRSA does not have the specified
                  authority to disclose the 340B ceiling prices to its prime vendor for the
                  stated purpose of negotiation. As a result, the prime vendor’s ability to
                  perform its assigned role is challenged by the lack of information.




OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   17
     F   I N D I N G        S      





  Participating entities cannot independently             Pursuant to the confidentiality provisions
verify that they receive the correct 340B price           in OBRA ’90 regarding manufacturers’
                                                          pricing information, covered entities do
              due to confidentiality provisions
                                                          not have access to confidential drug
                           pricing information used to calculate the 340B discount—AMP, best
                           price, and URA. Therefore, HRSA cannot share 340B ceiling prices with
                           the entities.

                           HRSA’s 340B Program guidance states that “confidential drug pricing
                           information includes both ‘best price’ and ‘average manufacturer price.’
                           The quoted price and actual price given by the manufacturer to the
                           covered entity is not confidential.”18 The selling price that
                           manufacturers provide to wholesalers and entities is considered public
                           information because it is not data reported to the Government for the
                           purpose of the Medicaid program or the 340B Program. Also, since the
                           340B discount is a ceiling price, a variety of selling prices can exist
                           under the ceiling.

                           In a 2004 survey of 340B participants, commissioned by HRSA and
                           conducted by Mathematica Policy Research, 23 percent of respondents
                           complained about the lack of price transparency. Entities may submit
                           written requests to HRSA for 340B price approximations, but survey
                           respondents viewed this process as cumbersome and inefficient.19
                           HRSA staff confirmed that they are only able to review price requests
                           limited to 10 products at a time due to staffing limitations. Further,
                           due to the confidentiality provisions, HRSA can only provide a general
                           indication to the entity on whether the price is over the ceiling. In other
                           words, if an entity’s reported price exceeds the ceiling price, HRSA can
                           inform the entity of the overcharge, but not the extent of the overcharge.

                           In October 2000, HRSA attempted to provide entities with a tool to
                           verify prices but was ultimately unsuccessful. HRSA posted the selling
                           prices of 207 commonly prescribed drugs (negotiated by and purchased
                           through its prime vendor) on its Web site to demonstrate the prices
                           entities could receive if they signed up for the prime vendor program.
                           However, due to industry complaints that the publication violated the
                           confidentiality provisions stated in the Medicaid statute, HRSA
                           removed the list in January 2001.20 This action removed the only tool
                           entities had to verify discounts. HRSA does not currently post any
                           information related to price on its Web site or elsewhere.



         OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   18
     F   I N D I N G         S

                  Since HRSA cannot share the protected data and is faced with industry
                  opposition to supplying sales data, entities are unable to determine or
                  approximate whether their purchases are at or below the 340B ceiling
                  price. Absent such data, entities either assume that the manufacturer’s
                  reported price is compliant with the law or expend significant resources
                  to obtain drug pricing information from secondary sources (including
                  wholesalers, consultants, and other purchasers).




OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   19
Δ      R E C O M M E N D A T I O N S                                             




                      Our findings point to systemic problems with HRSA’s oversight of the
                      340B Program and with the data used in the calculation of 340B ceiling
                      prices. HRSA’s 340B ceiling price has not historically been based on
                      accurate pricing information and we have concerns about the continued
                      problems posed by inaccurate and incomplete data. Even if HRSA did
                      possess accurate ceiling prices, we believe that it does not have
                      appropriate mechanisms in place to ensure that entities are charged at
                      or below the appropriate ceiling price. HRSA also does not have the
                      authority to enforce the terms of the PHS Act. Finally, confidentiality
                      provisions prevent HRSA from sharing the 340B ceiling price data with
                      covered entities so they can verify that they are receiving the price to
                      which they are entitled. As a result, it is nearly impossible for HRSA to
                      assess whether the 340B Program is being implemented as intended to
                      “stretch Federal resources as far as possible, to reach more eligible
                      patients and provide more comprehensive services.”21
                      HRSA’s ability to protect the integrity of the 340B Program is not
                      only crucial to the thousands of Federal grantees and public hospitals
                      whose patients currently benefit from the discount, but is also
                      important to the growing number of future beneficiaries. Due to a
                      change enacted by the Medicare Prescription Drug, Improvement, and
                      Modernization Act of 2003, rural and urban hospitals with fewer than
                      100 beds now meet the eligibility criteria to enroll in the 340B
                      Program.22 State Medicaid Directors are also seeking ways to cover
                      the pharmaceutical needs of some Medicaid beneficiaries using the
                      340B discount price, which is typically lower than the Medicaid
                      rebate. Finally, the President’s proposed budget for fiscal year 2006
                      completes the Administration’s 5-year commitment to create 1,200
                      new or expanded health center sites serving an estimated additional
                      6.1 million people.23 Each new site will be eligible for the 340B
                      Program. These beneficiaries depend on receiving discounted
                      prescription drugs through the 340B Program; therefore, it is
                      essential that the program receive appropriate oversight.

                      The following recommendations focus on improving HRSA’s oversight
                      of the 340B Program as it relates to the integrity of its ceiling prices,
                      as well as its ability to ensure that entities pay no more than the
                      appropriate price.



    OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   20
R 	E C O     M M E N D A T                   I O N       S



                     CMS and HRSA should work together to ensure accurate and timely
                     pricing data for the Government’s official record of 340B ceiling prices
                     CMS and HRSA have already engaged in discussions about calculating
                     the 340B ceiling price. On September 19, 2005, CMS and HRSA signed
                     a new Intra-Agency Agreement, which states that HRSA will receive
                     pricing data effective during FY 2005 from CMS, but will itself calculate
                     the Government’s 340B ceiling price. We encourage CMS and HRSA to
                     continue to work together to improve the accuracy and timeliness of the
                     pricing data CMS has agreed to provide HRSA. Additionally, because
                     no Agreement has been signed for FY 2006, we anticipate the need for
                     continued cooperation to ensure that there is no interruption in the
                     calculation of the 340B ceiling prices used to monitor the program. To
                     improve the data contained in the 340B ceiling price file, CMS and
                     HRSA should:

                     • 	 Restate the need for manufacturers to provide complete and timely
                         pricing data, as required by OBRA ’90; if manufacturers’ pricing
                         data submissions do not comply with the 30-day requirements, CMS
                         should consider making referrals to OIG to levy penalties for late
                         data in appropriate cases;

                     • 	 Determine a solution for updating missing prices so HRSA’s record
                         is complete; and

                     • 	 Eliminate data that are not relevant to the 340B Program, such as
                         terminated products and labelers, as well as products with future
                         market dates.
                     HRSA should establish detailed standards for the calculation of 340B ceiling
                     prices
                     To prevent the types of errors we discovered in CMS’s calculation of the
                     340B ceiling price, we suggest that HRSA take action to ensure the
                     accuracy of its calculations. In particular, HRSA needs to develop
                     specific policies around correctly calculating 340B ceiling prices.
                     HRSA’s standards should include specifics on the use of correct package
                     sizes and a conversion of negative ceiling prices.
                     HRSA should institute oversight mechanisms to validate its 340B price
                     calculations and the prices charged to participating entities
                     We suggest that this oversight protocol include:

                     • 	 Comparing the Government’s official 340B ceiling prices to the
                         manufacturers’ ceiling prices each quarter to detect discrepancies.
                         HRSA could accomplish this by requesting that manufacturers


   OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   21
R 	E C O      M M E N D A T                 I O N         S


                       submit either a sample of 340B prices or send all 340B prices
                       directly to HRSA each quarter.

                   • 	 Spot-checking entity invoices to ensure that entities are charged at
                       or below 340B ceiling prices.

                   • 	 Selectively auditing manufacturers, wholesalers, and covered
                       entities to ensure the integrity of the 340B Program.
                   HRSA should seek authority to establish penalties for violations of the
                   PHS Act
                   Other than exclusion from participation in the Medicaid drug rebate
                   and 340B programs, HRSA has no effective penalties to use for
                   violations of the PHS Act or the Pharmaceutical Pricing Agreement.
                   HRSA should propose a legislative package that might include a variety
                   of sanctions, such as fines and civil monetary penalties. We recommend
                   that HRSA consider as a model CMS’s statutory authority to enforce the
                   Medicaid rebate program, pursuant to § 1927(b)(3)(C)(i) of the Social
                   Security Act, and seek similar authorities with respect to enforcement of
                   the 340B Program.
                   HRSA should provide covered entities with secured access to certain
                   pricing data to help approximate 340B ceiling prices
                   To optimize 340B savings and maximize the efficiency of the covered
                   entities’ role in the program, we suggest two methods to help entities
                   detect differences between the price they pay and the price they are
                   entitled to under the law:

                   1. 	 HRSA could design a mechanism that allows participating entities
                        to assess whether prices exceed the ceiling price. Because OBRA ’90
                        requires the HHS Secretary to keep components of the 340B ceiling
                        price—AMP and Best Price—confidential, HRSA may not disclose
                        the 340B ceiling price to the entities. Presently, HRSA can
                        informally review a limited number of prices on behalf of the entities
                        and inform them if their prices exceed the ceiling price. However, to
                        protect confidential data, it cannot reveal the extent of any
                        overcharge.

                       We suggest that HRSA develop a price verification system that
                       informs entities if they are paying above the ceiling price. Entities
                       should have enough information to, at the very least, submit prices
                       to determine whether they comply with the 340B discount
                       requirements. Through this system, entities should be able to
                       identify potential vulnerabilities and pursue further communication


 OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   22
R 	E C O      M M E N D A T                 I O N         S


                       with HRSA or the manufacturer. One suggestion is to institute a
                       password-protected, Web-based query function to allow entities to
                       check the prices they paid against 340B ceiling prices, while still
                       protecting the confidentiality of the manufacturers’ data. For
                       example, entities could enter the price they paid for a drug and
                       receive a response if it exceeds the ceiling price within a specified
                       percentage (for example, within 5 percent). Alternatively, entities
                       could submit the prices paid for a market basket of products to
                       obtain information about the appropriateness of the charges in the
                       aggregate.

                   2. 	 HRSA could reinstate the publication of its 340B prime vendor
                        program’s selling price list on the agency Web site so covered
                        entities could estimate the potential savings available to them.
                        Pursuant to HRSA’s entity guidelines, confidential pricing
                        information includes both the best price and the AMP; however, the
                        quoted price and the actual price given by the manufacturer to the
                        entity are not confidential.24
                       Because the absence of an offical 340B price list presents a major
                       challenge to participation in the 340B Program, we suggest that
                       HRSA maximize the use of its prime vendor to provide
                       nonconfidential pricing information to covered entities. HRSA’s
                       posting of the agency’s prime vendor program’s prices in 2000 did
                       not reveal information protected by OBRA ’90; rather, HRSA’s
                       information included quoted and/or actual wholesaler prices that are
                       widely available in the marketplace. The reinstatement of this list
                       would provide entities with a tool to compare the prices they pay to
                       a source that is overseen by the prime vendor.


                   AGENCY COMMENTS
                   HRSA and CMS concurred with most of our recommendations. The
                   complete text of the comments can be found in Appendix B.

                   Based on the issues raised and recommedations offered in our
                   withdrawn report, HRSA and CMS have already engaged in numerous
                   technical discussions about calculating the 340B ceiling price. As a
                   result of these discussions, HRSA and CMS negotiated a new Intra-
                   Agency Agreement and Data Use Agreement. Under this Agreement,
                   HRSA will receive pricing data from CMS effective during FY 2005, but
                   will itself calculate the Government’s 340B ceiling price. To improve
                   the quality and timeliness of the data sent to HRSA, CMS has agreed to

 OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   23
                  reiterate the 30-day pricing data submission requirement for
                  manufacturers and will consider referring appropriate cases of late
                  submission to OIG to levy penalties. HRSA commented that it will
                  work with CMS to maximize the acquisition of manufacturer’s data as
                  well as resolve problems related to missing data. HRSA also agreed to
                  publish detailed standards for the calculation of 340B ceiling prices on
                  its Web site.

                  In response to our recommended steps for instituting oversight to
                  improve the integrity of 340B ceiling prices, HRSA stated its intent to
                  review the data that manufacturers and entities voluntarily submit, to
                  the extent that resources permit. HRSA stated that it further intends
                  to compare manufacturers’ pricing data, provided through wholesalers
                  to its Prime Vendor Program, to its 340B ceiling prices. For more
                  intensive audits of the 340B Program, HRSA deferred to its reliance
                  upon OIG audits and evaluations.

                  HRSA does not support our recommendation to seek legislation to
                  establish penalties for violations of the PHS Act, preferring to first
                  acquire experience with its planned changes. Finally, HRSA does not
                  concur with our recommendation that it reinstate the publication of
                  HRSA’s 340B prime vendor program’s selling price on the agency Web
                  site. HRSA stated that it is exploring other options.


                  OFFICE OF INSPECTOR GENERAL RESPONSE
                  We are encouraged that CMS and HRSA concur with most of our
                  recommendations and have already taken steps to improve the
                  calculation of the 340B ceiling price. In addition, we support HRSA’s
                  intention to publish detailed standards for the calculation of the 340B
                  price. However, HRSA did not indicate an approximate timeline for
                  posting this information or provide details on what we should expect of
                  the standards.

                  We also support HRSA’s stated intention to compare the manufacturers’
                  data currently received on a voluntary basis to the ceiling price and
                  review the prices charged to entities; however, we do not believe this
                  represents an adequate approach toward oversight of the program.
                  While this level of review might prove helpful in some instances, it will
                  only cover the number of limited manufacturers and entities who choose
                  to voluntarily supply drug pricing data. Comparing manufacturers’
                  selling prices to the official Government 340B prices represents a
                  positive step toward comprehensive oversight.

OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   24
                  We are concerned about the limited nature of HRSA’s own plans for
                  oversight of the 340B Program. While OIG is committed to ensuring the
                  integrity of the HHS programs, we believe that routine oversight is an
                  agency’s responsibility. Therefore, we maintain that HRSA itself needs
                  to develop a comprehensive auditing program.

                  We also do not agree with HRSA that it is best to wait to seek authority
                  to establish penalties for violations of the PHS Act. Rather, we believe
                  that the ability to impose fines and civil penalities is essential in
                  ensuring that entities receive the full 340B discount.




OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   25
Δ   E N D N O T E S                         





                  1    OIG quality assurance standards are based on the Government
                       Auditing Standards, 2004.

                  2    Total purchase estimates from the Office of Pharmacy Affairs, 2003.

                  3    340B entity expenditures are based on estimates from the Director of
                       HRSA’s Office of Pharmacy Affairs in a presentation to the 340B
                       Coalition on July 14, 2003. This is the most recent estimate available.

                  4    Section 1927 of the Social Security Act, 42 U.S.C. 1396s, defines the
                       sales information drug manufacturers must provide to CMS, including
                       the AMP and Best Price for the total sales of each covered outpatient
                       drug over a quarter’s time.

                  5    Intra-Agency Agreement signed between CMS and HRSA, 2004.

                  6    Guidance Regarding Section 602 of the Veterans Health Care Act of
                       1992 Limitation on Prices of Drugs Purchased by Covered Entities,
                       58 FR 27291, December 29, 1993.

                  7    Section 1927(b)(3)(D)(i) of the Social Security Act, 42 U.S.C. 1396r-
                       8(b)(3)(D)(i).

                  8    Intra-Agency Agreement signed between CMS and HRSA, 2004.

                  9    Totals do not equal 100 due to rounding.

                  10    The amount of the penalty, as set forth in section 1927(b)(3)(C)(i) of
                       the Act, is $10,000 for each day in which such information has not been
                       provided. The Secretary has delegated the responsibility of imposing
                       such penalties to OIG when CMS identifies instances in which
                       manufacturers are in violation of the 30-day submission requirement.

                  11   The 50/50 edit was designed to reject an AMP when it is either 50
                       percent higher or lower than the manufacturer’s submission from the
                       previous quarter. When the 50/50 edit detects faulty AMP values,
                       CMS sends a report to the manufacturer requesting corrected
                       information.




OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM       26
                  12   OIG interview with HRSA’s Office of Pharmacy Affairs, June 2003.

                  13   42 U.S.C. 1396r-8(b)(4)(B).

                  14   59 FR 30023, May 13, 1994.

                  15   61 FR 65413, December 12, 1996.

                  16   Pharmaceutical Pricing Agreement, section IV, Dispute Resolution,
                       subsection (c).

                  17   Office of Inspector General, “Pharmaceutical Manufacturers
                       Overcharged 340B Entities,” A-06-01-00060, March 10, 2003.

                  18   58 FR 68922, December 29, 1993.

                  19   Mathematica Policy Research, Inc., August 30, 2004, “The PHS 340B
                       Drug Discount Program: Results of a Survey of Eligible Entities.”

                  20   Pharmaceutical Researchers and Manufacturers of America letter to
                       HRSA, January 16, 2001.

                  21   H.R. Rpt. 102-384, 102nd Cong., 2nd session, part 2, at 12 (1992).

                  22   Medicare Prescription Drug, Improvement, and Modernization Act of
                       2003, section 402, increased the Medicare Disproportionate Share
                       Hospital cap from 5.25 percent to 12 percent. (SSA 1886(d)(5)(F)(xiv)

                  23   President’s Budget FY 2006, “Advancing the Health, Safety, and
                       Well-Being of Our People,” pp. 3-4.

                  24   59 FR 25110, May 13, 1994.




OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM    27
Δ       A P P E N D I X                          ~        A         





             Programs Eligible to Participate in 340B:

             Community health centers

             Tuberculosis clinics

             Sexually transmitted disease clinics

             Disproportionate share hospitals

             Migrant health clinics

             Healthcare for the homeless centers

             Federally qualified health center look-alikes

             Hemophilia treatment centers

             Ryan White Title I

             Ryan White Title II (direct purchase)

             Ryan White Title II (rebate option)

             Ryan White Title III

             Public housing clinics

             School-based programs

             Special Projects of National Significance

             Black lung clinics

             Urban Indian organizations

             Federally qualified health centers funded by the Office of
             Tribal Programs 


             Family planning clinics 





OEI-05-02-00072     DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   28
 Δ         A P P E N D I X                        ~            B     





OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   29
OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   30
OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   31
OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   32
OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   33
OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   34
OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   35
OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   36
Δ    A C K N O W L E D G M E N T S                                              


                  This report was prepared under the direction of William C. Moran,
                  Regional Inspector General for Evaluation and Inspections in the
                  Chicago regional office, and Ann T. Maxwell, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Madeline Francescatti, Team Leader
                  Tom Komaniecki, Program Analyst

                  Suzanne Bailey, Program Analyst

                  Ayana Everett, Program Specialist

                  Elise Stein, Director, Public Health and Human Services

                  Barbara Tedesco, Mathematical Statistician




OEI-05-02-00072   DEFICIENCIES   IN THE   OVERSIGHT   OF THE   340B DRUG PRICING PROGRAM   37
